Supreme- Court. U.S.
FILED

JUL 0 6 202)
No

.^o-vy
In the

Supreme Court of tlje tHmtefc States!
In Re. DAVID A GOLDEN (G.),

On Petition for extraordinary writ
(Mandamus, Prohibition, & Quo Warranto)
for the:
Ninth Circuit (No. 19-35608);
US District Court of Western Washington (No.
CV18 6051 RBL);
and US Dept, of Justice

Volume A
PETITION FOR EXTRAORDINARY WRIT
(MANDAMUS, PROHIBITION, & QUO
WARRANTO)
and
APPENDIX A (JUDICIAL ORDERS)

David A. Golden
WA Professional Engineer #39855
3459 US 75 AVE
Hull, IA 51239
Tel: (360)915-2612
Email: goldend3@gmail.com

INAL

OFFICE OF THE CLERK

QUESTIONS PRESENTED
1. Whether the 9th Circuit and Western
Washington District Ct. have abused their
discretion by dismissing Plaintiffs False
Claims complaint and appeal, with no
hearing and no relief, after fraud and perjury
were proven against USDOJ, and the crime
was proven by the 9th Circuit’s own case law?
2. Whether the Contract Clause of the US
Constitution (Art. I § 10 Clause 1)
invalidates the False Claims Act and other
state legislation (SB 5987)?
3. Whether the 1st, 5th, and 14th Amendments
(and Art. I § 7 of the Washington State
Constitution) invalidate this same
legislation, if petitioner has already shown
the Courts below that the challenged
legislation (SB 5987.) is obtained by the
Defendants’ abuse of the police state?
4. Whether the 9th Circuit and the District Ct.
have abused their discretion in refusing to
apply a strict scrutiny standard to
petitioner’s complaint?
5. Whether the 9th Circuit and the District Ct.
have abused their discretion by refusing to
award sanctions against USDOJ?
6. Whether USDOJ, the 9th Circuit, and US
District Court are unable to perform their
ministerial duty of enforcing the “Rule of
Law” because of political motivations?

PARTIES TO THE PROCEEDING
PETITIONER SEEKS A WRIT OF PROHIBITION
AGAINST THE FOLLOWING PARTIES:
Tacoma District Judge Ronald B. Leighton.

PETITIONER SEEKS MANDAMUS RELIEF
AGAINST THE FOLLOWING PARTIES:
Tacoma District Ct. Judge Ronald Leighton; The 9th
Circuit Appellate Ct.; United States Department of
Justice (USDOJ).

PETITIONER SEEKS QUO WARRANTO RELIEF
AGAINST THE FOLLOWING PARTIES:
USDOJ: US Attorneyz Bill Barr, Brian Moran, and
Ashley Burns.

THE PARTIES LISTED BELOW ARE
DEFENDANTS TO THE DISTRICT COURT
COMPLAINT, BUT WERE NOT SERVED WITH
PROCESS (OR WITH THIS PETITION) DUE TO
THE UNITED STATE’S REFUSAL TO ENFORCE
THE “RULE OF LAW”:
TROY X. KELLEY, individually and the marital
community composed thereof; LYNN PETERSON,
individually and the marital community composed
ii

A

ft

thereof, SCOTT NICHOLSON, individually and the
martial community composed thereof; TODD
HARRISON, individually and the marital
community composed thereof; BOB FERGUSON,
individually and the marital community composed
thereof; JAY INSLEE, individually and the marital
community composed thereof; CHRISTINE
GREGOIRE, individually and the marital
community property composed thereof; PAULA
HAMMOND, individually and the marital
community property composed thereof; TREVOR
OSBORNE, individually and the marital
community composed thereof; DAVIES PEARSON
ATTORNEYS, DANA DELUE, individually and the
marital community composed thereof; PATRICIA
BROWN, individually and the marital community
composed thereof; WASHINGTON STATE
DEMOCRATIC PARTY; DEMOCRATIC
GOVERNORS ASSOCIATION; DEMOCRATIC
NATIONAL COMMITTEE; WASHINGTON
STATE REPUBLICAN PARTY; REPUBLICAN
GOVERNORS ASSOCIATION; REPUBLICAN
NATIONAL COMMITTEE; STATE OF
WASHINGTON.

in

CORPORATE DISCLOSURE STATEMENT
Petitioner is an individual suing on behalf of
himself and the United States of America.
Petitioner has no parent corporation, and petitioner
owns less than 10% of any publicly traded
company.

RELATED PROCEEDINGS
Petitioner brought related action for duress
against Washington State on 1/4/16 in King Co.
Superior Ct. (KCSC; #16-2-00011-8 SEA; Golden u.
WSDOT) using state licensed attorney Eric Helmy
(WSBA #012833). Petitioner ran for state auditor
in 2016, and informed Helmy he intended to run
before commencing suit (the incumbent auditor,
Troy Kelley (defendant to this action), was indicted
on charges of tax fraud and money laundering on
4/15/15 (this case was also before Dist. Judge
Ronald B. Leighton (#3:15-cr-05198-RBL-l)).
Helmy advised petitioner not to speak with the
media because of the lawsuit. Helmy dismissed the
duress claim on 9/22/16 with prejudice (order
signed 10/6/16), after assuring petitioner he could
bring another action for fraud. After dismissal,
Helmy refused to further pursue the claim, and
petitioner came in last place for the 2016 auditor
primary election.
Petitioner brought pro se action on 12/14/16
(Golden, et al. v. WSDOT, et al.) in Spokane County
Superior Ct. (#16-2-04773-9). The action was
iv

A

transferred to KCSC (#17-2-04369-9). Complaint
was dismissed on 5/19/17 for lack of jurisdiction.
Costs were awarded against petitioner to Attorneyz
Osborne and Delue on 6/2/17 and 6/5/17,
respectively.
Petitioner brought pro se action on 11/29/17
in KCSC (#17-2-30664-9 SEA; Golden v. WSDOT, et
al.). The case was bifurcated, and the federal
defendants were removed to federal jurisdiction
(Case #C17-1877RSL). The case was dismissed on
12(b)(6) motion by the District Ct. on 2/8/18; and by
KCSC on 4/27/18. Petitioner was ordered to pay
$15,419.49 (5/18/18) to Defendant Osborne. An
appeal was begun in the 9th Circuit (No. 18-35166);
and Div. I Ct. of Appeals (Case 78471-4-1); but
petitioner moved for voluntary dismissal; and the
order was signed by the Div. I Ct. of Appeals on
7/13/18; and by the 9th Circuit on 6/25/18.

i

Petitioner filed Motions to Intervene in the
following related cases:
76310-5-1 (WSDOT u. Mullen Trucking, et
al.); Washington State Court of Appeals
Division I; Re. Skagit R. 1-5 bridge false
claim. Motion to Intervene denied on
7/17/2017. Petitioner’s information about:
bridge not being posted correctly for
clearance; bridge not being inspected
correctly in 2012; fraudulent contract
settlement agreements was suppressed from
public knowledge.

%

16-2-26961-3 SEA (City of Seattle v. Seattle
Tunnel Partners, et al.); KCSC; Re. Bertha
Tunnel Machine false claim; Motion to
Intervene denied on 8/11/17. Petitioner’s
information about fraud on the project was
suppressed from public knowledge.
17-2-23111-8 SEA (Tracy Vedder v. Sinclair
Media)] KCSC; Re. Tracy Vedder wrongful
termination related to SR 520 bridge $170
million change order false claim; Motion to
Intervene denied on 2/14/18. Sanctions
awarded against petitioner on 4/2/18.
Petitioner appealed to Supreme Ct. of WA for
discretionary review (No. 956278); Review
denied on 6/1/18. Final decision rendered
against Vedder by KCSC on 10/5/18.
17-2-04986-34 (Associated Press, et al. v.
Washington State Legislature, et al.)]
Thurston County Superior Court (TCSC); Re.
fraudulent concealment of (petitioner’s)
records (SB 6617) related to Skagit R. 1-5
bridge collapse / WA tax bill SB 5987 by
“Democrats” and Republicans. Motion to
Intervene denied on 12/1/17. Petitioner
appealed to Supreme Ct. of WA (No. 95357-1)
for discretionary review. Review denied on
4/19/18.
16-2-00980-34 (WSDOTv. Seattle Tunnel
Partners, et al.)] TCSC; Re. Bertha Tunnel
Machine false claim; Motion to Intervene
stricken on 3/29/19). Petitioner’s Information

VI

about fraud on the project was suppressed
from public knowledge.
l:17-cv-1370 (Roy Cockrum, et al. u. Donald
J. Trump for President, et al.); District Ct. of
District of Columbia; Re. Democratic
National Committee hacking / Russian
Interference; Motion to Intervene denied on
3/28/18.
17-35105 (State of Washington, et al. v.
Donald J. Trump, et al.); 9th Circuit Ct. of
Appeals; Re. immigration and abuse of the
Courts for political purposes by WA State
Attorney General; Motion to Intervene
denied on 2/6/17. Petitioner filed separate
motion to intervene in Dist. Ct. on remand;
Motion denied on 3/29/17. Petitioner
appealed to Supreme Ct for certiorari;
certiorari denied on 11/13/17.
l:19-CR-00490 (United States v. Jeffrey
Epstein); Southern District of New York
District Ct.; Re. Jeffrey Epstein “apparent
suicide” nolle prosequi; Motion to intervene /
quo warranto denied on 8/27/19; judge
suppressed petitioner’s affidavit and
evidence from the docket.
17-232-EGS (United States v. Michael
Flynn); DC Circuit Ct.; Re. USDOJ’s
withdrawal from Michael Flynn fraud case;
no order issued on motion; DC District Court
suppressed the quo warranto petition,
affidavit, and evidence from docket.
Vll

*x

TABLE OF CONTENTS
Volume A
PAGE
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

11-111

CORPORATE DISCLOSURE

iv

RELATED PROCEEDINGS

1V-V11

TABLE OF AUTHORITIES

Xl-XV

JURISDICTION,

1

CONST. PROVISIONS & STATUTES

3

STATEMENT OF THE CASE AND FACTS...5
ARGUMENT,

10

CONCLUSION

39

APPENDIX A (JUDICIAL ORDERS)
4/25/19 District Ct. Order (Dkt. at 12); United
States refusal to intervene in the action under
the False Claims Act
A1-A3
5/14/19 District Ct. Order (Dkt. at 16) dismissing
petitioner’s complaint
A4-A5
5/15/19 District Ct. Minute Order (Dkt. at 17):
mooting the Quo Warranto proceedings against
viii

USDOJ; and denying sanctions against USDOJ
A6-A7
for prosecutorial fraud
5/15/2019 District Ct. Final Order (Dkt. at 18):
closing case, denying petitioner evidentiary
hearing and relief for contract fraud; due to
A8-A9
prosecutorial fraud
6/26/19 District Ct. Order (Dkt. at 25) refusing to
vacate or amend the judgment; and threatening
petitioner with sanctions for proving perjury
against Bill Barr, prosecutorial fraud against
USDOJ, and petitioning for a lawful redress of
A10-A11
grievances
12/19/19 9th CIR. Order (Dkt. at 18) dismissing
the appeal in summary affirmance without
hearing, indicating the "questions raised in this
appeal are so insubstantial as not to require
A12-A13
further argument"
5/14/20 9th CIR. Order (Dkt. at 25) refusing to
vacate, reconsider, conduct rehearing, or conduct
rehearing en banc
A14-A15

Volume B
APPENDIX B: Contract fraud / False Claims Act
complaint filed in the US District Ct. on
B1-B286
12/27/18

IX

Volume C
APPENDIX C: Selected excerpts from the US
District Ct. (Case No. cv-18-6051RBL); the 9th
Circuit Ct. of Appeals (Case No. 19-35608); the DC
Circuit Court (Case No. 17-232-EGS); and the DC
Ct. of Appeals (No. 20-5143)
C1-C254

TABLE OF AUTHORITIES
Page
Cases
Cheney v. U.S. District Ct. for D.C.,
542 U.S. 367 (2004)............................. 10, 11
McClellan v. Garland, 217 US 268
(1910)...................................................... 11
Jeff D. v. Otter, 643 F. 3d 278 (9th CIR.
(2011))..................................................... 12

Chang v. U.S., 237 F. 3d 911 (9th CIR.
(2003))......................................... 12
Keon v. U.S., 518 U.S. 81 (1966)......... 12
Oregon Nat. Res. Council v. Marsh, 52 F. 3d 1485
12
(9th CIR. (1995))
Goldberg, Commissioner of Social Services of the
City of New York v. Kelley et al. 397 US 254
15, 16, 17
(1970)
Usery v. Turner Elkhorn Mining Co., 428 US 1
19
(1976)
Kramer v. Union Free School Dist. No. 15. 395
19, 26
US 621 (1969)
U.S. v. Carotene Products Co., 304 U.S. 144
19
(1938)
United States Trust Co. of NY v. New Jersey, 431
20-21
US 1 (1977)
xi

Allied Structural Steel Co. v. Spannaus, 438 US
234 (1979)
21, 24
H.J. INC v. Northwestern Bell, L Ed. 2d 195
(1989)
22, 33,
34, 35
Walker v. Whitehead, 83 US 314
(1873).................... ....... ..............

23

Washington v. Trump, 847 F. 3d 1151 (9th CIR.
(2017))
26
Village of Arlington Heights v. Metro. Housing
Dev. Corp., 429 US 252 (1977)
26
US ex rel. Coleman v. Cox, 47 F 2d 998 (C.C.A.
5th CIR. (1931))
27
Vuckson v. United States, 354 F. 2d 918 (9th CIR.
(1966))
29
United States ex rel. Noel v. Carmody, 148 F. 2d
684 (US App. DC (1945))
31
State v. Horan, 22 Wash. 197 (Washington State
Supreme Ct. (1900))
31
Hazel-Atlas Glass Co. v. Hartford -Empire Co.,
322 US 238 (1944)
36
United States v. Sierra Pacific Industries, Inc.,
862 F. 3d 1157 (9th CIR. (2017))
36
Cooter & Gell v. Hartmarx Corp., 496 US 384
(1990)
37

xii

Constitutional Provisions, Statutes, and
Court Rules
U.S. Constitution
Art. I, § 10, cl. 1 (Contract Clause).. 3, 20, 21
22, 39
4, 37
Art. II, § 3...........
4, 37
Art. II, § 4...........
1
Art. Ill, § 2.........
4, 39
Art. VT, cl. 2........
4, 39
Art. VI, cl. 3........
18, 20, 39
1st Amendment..
18, 20, 39
5th Amendment..
18, 20, 39
14th Amendment
2nd Restatement of Contracts (§ 159178).....................................................

3, 33, 36

5 US § 3331 (oaths of office)

4, 39

18 US § 1001 (fraud)

4, 29

18 US § 1621 (perjury)

4, 27

18 US § 287 (false claims in govt,
proceedings)................................ .

4

18 US § 1512 (obstruction)

4

28 US § 453 (oaths of office)

4, 39

xm

18 US § 872 (extortion by Govt.)

4, 26

15 US § 1 and 2 (The Sherman Act)..... 5, 29
Supreme Ct. Rule 20

1

Supreme Ct. Rule 8

2

Federal Rule of Civil Procedure 11
(sanctions)......................................

5, 36

28 US § 1651 (The All Writs Act)

1, 9, 10

Washington State Criminal Profiteering Act
(RCW 9A.82)
4, 33
18 US §1961 (Racketeering Influenced and
Corrupt Organizations Act (RICO))..4, 35
28 US § 1294

9

28 US § 1291

9

Quo Warranto
28 US 1367 (jurisdiction)......... .
D.C. Code §16-3501 to 16-3503
D.C. Code §16-3521 to 16-3523
D.C. Code §16-3541 to 16-3548

1
4
4
4

xiv

The False Claims Act (FCA),
31 US § 3729......................
31 US § 3730......................

2, 3,5
3, 7, 14

Washington State SB 5987

2, 5, 7, 8,
14, 16, 18,
19, 20, 24,
34, 39

Washington State SB 6617

24

Other Authorities
Corpus Juris Secundum

12, 13, 25,
27, 38

American Jurisprudence

31, 32

XV

(this page left blank intentionally)

JURISDICTION
Petitioner seeks judicial review of the 9th
Circuit’s 5/15/20 order (p. A14-A15) denying
rehearing, rehearing en banc, vacation, or
reconsideration of judgment. Petitioner seeks
judicial review of the 9th Circuit’s 12/19/19 order
(p. A12-A13) granting summary affirmance to
USDOJ, denying petitioner writs of prohibition &
quo warranto, after perjury was established against
US Attorney General Bill Barr. Petitioner seeks
judicial review of the District Ct.’s 5/15/19
“mooting” of the quo warranto action (p. A6-A7),
and dismissal of petitioner’s complaint (p. A4-A5; p.
A8-A9), after fraud and perjury was established
against USDOJ. Petitioner seeks judicial review of
the District Ct.’s 6/26/19 order (p. A10-A11)
refusing to sanction USDOJ, threatening petitioner
with sanctions, and denying all of petitioner’s post­
judgment motions.
This Court has appellate jurisdiction under
Article III § 2 of the US Constitution.
This Court has authority to issue writs of
mandamus, prohibition, and quo warranto
pursuant to 28 US § 1651 and Supreme Ct. Rule
20.
This Court, the 9th Circuit, and the District
Ct. have supplemental jurisdiction for quo
warranto under 28 US § 1367 (see p. C236 10).

1

This Court has inherent authority to
sanction memberz of the Bar under Supreme Ct.
Rule 8.
Petitioner respectfully petitions this Court
for these extraordinary writs, to hold the District
Ct., the 9th Circuit, and USDOJ to a lawful use of
power. USDOJ, the 9th Circuit, and District Court
have abused their discretion by dismissing
petitioner’s claims.
Supreme Ct. Rule 29.4(a) applies to this
case; and requires that the Solicitor General be
served. Petitioner mailed three copies of this
petition to:
Noel Francisco
Solicitor General, Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
Supreme Ct. Rule 29.4(b) applies to this case. The
District Ct. and the 9th Circuit failed to certify
(pursuant to 28 USC §2403(a)) that the
constitutionality of an Act of Congress (The False
Claims Act (31 US §§ 3729 et seq.)) has been drawn
into question.
Supreme Ct. Rule 29.4(c) applies to this case.
This rule requires that the Attorney General of
Washington be served with this petition. The
District Ct. and the 9th Circuit failed to certify that
the constitutionality of a state statute (SB 5987:
Connecting WA gas tax/ light rail tax package) has
2

been drawn into question. Petitioner mailed three
copies of this petition to:
Bob Ferguson
Washington State Attorney General
1125 Washington St. SE, PO Box 40100
Olympia, WA 98504-0100

CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES INVOLVED IN THIS CASE
This case was filed under the False Claims
Act (FCA; 31 US §§ 3729 et seq.), but also involves
fraudulent employment contracts (2nd Restatement
of Contracts, §159-177; US Constitution Art I. §10
Clause 1), and violations of public policy (2nd
Restatement of Contracts § 178). The contract fraud
claim (equivalent to one of the four false claims)
was filed against petitioner’s previous attorneyz,
OSHA agent Patty Brown, the State of
Washington, the Democratic Party, and the
Republican Party; as these parties conspired to
bind petitioner in fraudulent contract agreements.
This case was submitted to the US
Attorneyz’ Office under 31US§3730. Because the
Government is involved in the contract fraud claim,
and stands to gain $1-2 trillion because of it, the
Government moved to dismiss the claim.1
1 The procedure the Government has adopted to process a
FCA complaint is described in the appendix (p. C152-C155) by
US Attorney General Bill Barr.
3

h

The four false claims together, form a
pattern of racketeering activity involving similar
participants. This activity is covered in petitioner’s
complaint (see p. B254) under the Washington
criminal profiteering act (RCW 9A.82), which is
modeled upon RICO (18 US §§ 1961, et seq.), and
uses federal case law as precedent. Petitioner is
able to file criminal charges under the FCA.
In May of 2019, petitioner filed a quo
warranto action against USDOJ (DC Code §163501 to 16-3503; §16-3521 to 16-3523; and §16-3541
to 16-3548). In this petition, petitioner gave
sufficient fact and evidence to prove perjury and
fraud against US Attorney General Bill Barr (US
Constitution Art. II § 3 & 4; US Constitution Art.
VI Clauses 2 & 3; 5 US § 3331; 18 US § 1001(a); 18
US § 1621; and 18 US §287), and obstruction and
fraudulent motion practice by USDOJ (18 US §
1512; US Constitution Art. II § 3 & 4; 28 US 453;
US Constitution Art. VI Clauses 2 & 3; 18 US §
287).
Petitioner (who is a crime victim witness),
was then obstructed by the District Ct, and
threatened with sanctions contrary to law (US
Constitution Art. VI Clauses 2 & 3; 28 US § 453; 18
US § 872); and the 9th Circuit refused to allow a
hearing of the appeal.
Because the “Democratic” party / Republican
party have monopolistic control on: whistleblower
complaints; elections; campaign finance; new tax

4

legislation; the newz media; legal complaints; and
USDOJ; the Sherman Act (15 US § 1 and 2) is also
applicable to this case.
Federal Rule of Civil Procedure Rule 11
(Sanctions) is also relevant here, because the
United States refuses to enforce the “Rule of Law”
for political reasons.
This petition challenges the constitutionality
of SB 5987 (WA State gas tax & light rail tax
provision); as well as the False Claims Act (31 US
§§ 3729, et seq.).

STATEMENT OF THE CASE and FACTS
David A. Golden (herewith, referred to as G.)
was a bridge inspector and licensed engineer,
employed by the Washington State Department of
Transportation (WSDOT) for over 10 years,
inspecting many of the state’s most complicated
structures (see p. B3-B4). On 3/29/13, G. filed an
OSHA harassment complaint (p. C1-C24), after
filing a whistleblower complaint, with State
Auditor’s Office and USDOT OIG (Office of the
Inspector General). The complaint involved
insufficient bridge inspection work on the Skagit R.
1-5 Bridge (see p. C8) and four other bridges. On
4/25/13, a “frivolous” Restraining Order (TRO) was
filed against G. by Lynn Peterson, the governor’s
transportation secretary, who stalked G. to his
home, and moved into the closest house for sale (see
p. C25-C45).
5

G. was then forced to enroll the “services” of
an attorney, and settled on Davies Pearson
Attorneyz in Tacoma, where his father was a client
for years (p. C46-C50). The Attorney there, Trevor
Osborne, lured G. into a bait and switch contract
agreement in which he later refused to work on the
corresponding OSHA claim (the whole reason G.
went to Davies Pearson in the first place, before the
TRO was ever filed (see p, C21)). G. signed
Osborne’s fraudulent TRO settlement agreement
on 6/14/13, three days before the hearing, after
Osborne refused to file documents (including the
OSHA harassment complaint containing the Skagit
R. 1-5 bridge (which collapsed on 5/23/13)), refused
to contact material witnesses, and other various
acts and omissions Osborne made in regards to
“bolstering” G.’s defenses for trial (see generally
complaint p. B29-B45); and in violation of his
contract.
Because Osborne: 1) extracted himself from
the OSHA complaint just before the TRO trial; 2)
refused to “bolster” G.’s defenses; and 3) saddled G.
with nearly $8,000 in fraudulent legal expenses, G.
was forced to obtain the “services” of another
attorney.
As no other attorneyz would help, G. settled
on Ferring-Delue Whistleblower Attorneyz in
Seattle. Attorney Delue offered G. a contingency
fee agreement (p. C51-C56). However, much like
G.’s previous experience at Davies Pearson
Attorneyz in Tacoma; Ferring-Delue Attorneyz in
Seattle refused to file documents, contact witnesses,
6

and made several acts and omissions (see generally
p. B45-B75) to force G. into a fraudulent settlement
agreement (see p. C57-C65), perhaps the greatest of
which was that his firm served as counsel for the
Association of General Contractors (AGC; see p.
B261-B264), and AGC had been lobbying to get a
gas tax / light rail tax (SB 5987) passed for several
years.
Likewise, OSHA (Occupational Safety and
Health Administration) agent Patty Brown
misrepresented (by act or omission) several facts in
regards to her contract with G. (see p. C4).
On 12/27/18, G. filed a contract fraud /
organized crime / FCA complaint against: G.’s
former attorneyz, the “Democratic” Party, the
Republican Party, State of Washington, and OSHA
agent Patty Bi'own (the Defendants; see p. B1-B2);
as a pattern of recurrent racketeering activity was
clearly visible across three other major construction
projects (the Oso slide, the Bertha SR 99 Tunnel
replacement, and the 520 bridge replacement
project (see p. B235-B244)).
In January of 2019, and in accordance with
the requirements of the FCA (31 US § 3730(b)(2)),
G. served the United States with a 1300(+) page
affidavit proving the entire complaint; including his
contract fraud false claim; as well as the three
other false claims; with the common purpose of the
frauds being to ensure passage of a new tax
measure (SB 5987; see p. C76) for “Democratic” and
Republican political campaign donors (see p. C77C100).
7

Rather than letting residents vote on this tax
measure (SB 5987), “Democrats” and Republicans
did all the voting for them, though an “advisory
vote” was later allowed, under which SB 5987
failed by a near a 2:1 majority (see p. C101-C111).
In addition to providing funding (for AGC and the
labor unions) for highway projects from the gas tax,
SB 5987 also granted supplemental taxing
authority to Sound Transit 3, the region’s new light
rail (see p. C104-C107).
On 5/1/19, USDOJ moved for a dismissal of
G.’s organized crime / contract fraud / FCA
complaint (p. C112-C117), stating that “the United
States has concluded that Relator’s allegations lack
factual and legal support” (p. Cl 14), and that G.
must prove that dismissal is “fraudulent, arbitrary
and capricious, or illegal” (p. Cl 15) to stop USDOJ
from dismissing the complaint.
After reviewing these instructions, on
5/13/19 G. filed a quo warranto action (p. C118C136) against Bill Barr and the other USDOJ
Attorneyz for: fraud / perjury/ obstruction /
conspiracy / violations of oaths of office / sanctions;
and to seize the office to prosecute the contract
fraud and other false claims. The quo warranto
had attached by affidavit Bill Barr’s position paper
on the FCA (p. C137-C203), and other evidence
indicating that a dismissal was designed to help
politicians launder even more tax money (p. B277B286; C204).
The next day (5/14/19), the District Court
dismissed all of G.’s claims (p. A4-A5). The
8

following day (5/15/19), the District Court “mooted”
the quo warranto action (p. A6-A7) and finalized its
decision (p. A8-A9). On 5/20/19, G. filed a timely
response to USDOJ’s “frivolous” Motion to Dismiss
(scheduled for hearing on 5/24; see page C112),
arguing that a dismissal was fraudulent, arbitrary,
illegal, and capricious.
On 6/6/19, G. filed a Motion to Alter or
Amend the judgment and scheduled a hearing on
6/28/19. On 6/10/19, G. filed a Motion to Vacate the
Judgement, and scheduled the hearing also on
6/28/19. On 6/20/19, G. filed a Motion for Sanctions
against USDOJ for fraudulent motion practice, and
scheduled the hearing on 7/5/19. On 6/25/19, G.
filed a supplemental Motion for the 6/28 scheduled
hearing, and attached the same 1300(+) page
Declaration served on USDOJ in January proving
the entire complaint.
On 6/26/19, the District Court dismissed all
of G.’s motions (p. A10-A11), and refused to grant a
hearing, or any other relief for the Defendants’
various violations of the criminal, civil, and
common law statutes. Instead, the District Ct.
threatened G. with sanctions for filing the claim (p.
All).
G. then appealed this decision to the 9th
Circuit under 28 US §1291, 28 US §1294, and 28
US §1651. Instead of granting a hearing on the
appeal, on 12/19/19, the 9th Circuit Ct. issued a
judgment granting summary affirmance to
USDOJ’s fraudulent dismissal (see p. A12-A13). G.
then filed a petition to vacate/ reconsider the
9

judgement, as well as a petition for rehearing or
rehearing en banc. All of G.’s post judgment
motions were denied by the 9th Circuit on 5/14/20
(see p. A14-A15).

ARGUMENT
The All Writs Act states that federal courts
“may issue all writs necessary or appropriate in aid
of their respective jurisdictions and agreeable to
the usages and principles of law,” 28 US § 1651(a).
The requirements for a writ of mandamus to
issue, according to this Court, are:
“First the party seeking issuance of the writ
[must] have no other adequate means to
attain the relief he desires - a condition
designed to ensure that the writ will not be
used as a substitute for the regular appeals
process. Second, the petitioner must satisfy
the burden of showing that [his] right to
issuance of the writ is clear and
indisputable. Third, even if the first two
prerequisites have been met, the issuing
court, in the exercise of its discretion, must
be satisfied that the writ is appropriate
under the circumstances.” Cheney v. U.S.
District Ct. for D.C. 542 U.S. 367, 380-381.
This Court has also explained that:
“The traditional use of the writ in aid of
appellate jurisdiction both at common law
10

and in the federal courts has been to confine
[the court against which mandamus is
sought] to a lawful exercise of its prescribed
jurisdiction... only exceptional
circumstances amounting to a judicial
‘usurpation of power’ or a ‘clear abuse of
discretion’ (emphasis added) will justify the
invocation of this extraordinary remedy.” Id.
at 380.
This Court has also explained that:
“the separation-of-powers doctrine requires
that a branch not impair another in the
performance of its constitutional duties.” Id.
at 382.
and that:
“our historic [al] commitment to the rule of
law... is nowhere more profoundly manifest
than in our view that ‘the twofold aim [of
criminal justice] is that guilt shall not escape
or innocence suffer’... a ‘primary
constitutional duty of the Judicial Branch
[is] to do justice in criminal prosecutions.’...
an impairment of the ‘essential functions of
[another] branch,’ is impermissible.” Id. at
384.
Requisite conditions for mandamus to issue
are also explained in McClellan v. Garland, 217 US
268:
“where a case is within the appellate
jurisdiction of the higher court a writ of
11

mandamus may issue in aid of the appellate
jurisdiction which might otherwise be
defeated by the unauthorized action of the
court below.” Id. at 280.
According to the 9th Circuit or this Court, an
abuse of discretion occurs when:
“District court does not apply the correct law
or rests its decision on a clearly erroneous
finding of a material fact.” JeffD. v. Otter,
643 F. 3d 278, 283 (9* CIR. (2011));
or:
“District Ct. rules in an irrational manner.”
Chang v. U.S., 237 F. 3d 911, 925 (9th CIR.
(2003));
or:
“District Ct. makes an error of law.” Keon v.
U.S., 518 U.S. 81, 100;
or:
“Record contains no evidence to support
district court’s decision.” Oregon Nat. Res.
Council v. Marsh, 52 F. 3d 1485, 1492 (9th
CIR. (1995)).
The abuse of discretion standard is also explained
in the Corpus Juris Secundum:
“An ‘abuse of discretion,’ for purposes of
mandamus relief, implies an unreasonable,
12

arbitrary, or unconscionable attitude.
Accordingly, discretion must be exercised
according to the established rules of law.
Discretion may be said to be abused where
the action complained of has been arbitrary
or capricious, or exercised in bad faith. An
abuse of discretion occurs where a public
officer exercises discretion based on personal,
selfish, or fraudulent motives. It may also
arise from reliance on false information or
from a total lack of authority to act.
Moreover, an abuse of discretion arises
where the discretion amounts to an evasion
of a positive duty, or where there has been a
refusal to consider pertinent evidence, hear
the parties, or to entertain any proper
question concerning the exercise of the
discretion.” 55 C.J.S. Mandamus § 73
(2009).
I.

Mandamus should issue to USDOJ, the
District Ct., and the 9th Circuit to
confine these bodies to a lawful use of
power.
a) G. has demonstrated that there is no
other avenue to obtain the relief
desired other than by mandamus.

In this case, G. has shown repeated refusal
to: 1) hear pertinent evidence; 2) apply the law to
the facts; 3) entertain any questions put properly
before the Courts in compliance with “Rule of Law.”
13

t-

G. filed a complaint with the District Ct.
(Appendix B). This complaint contained four false
claims (p. B235-B244), including G.’s contract fraud
false claim (p. B237-B240). G.’s information about:
1) the Skagit R. 1-5 bridge not being inspected
correctly in 2012; 2) the Skagit'R. 1-5 bridge not
being posted correctly for clearance when it
collapsed due to Washington State’s negligence; 3)
was fraudulently concealed by the Defendants so
that the Defendants could use the bridge collapse
as propaganda (p; B154-B155) for the state’s new
gas tax /.light rail tax measure (SB 5987).
The four false claims concurrently (p. B235B244), also form a clear pattern of fraud and
racketeering, with the common purpose of creating
false propaganda to ensure passage of the tax
measure (SB 5987). According to 31 US §
3730(c)(2)(A) and USDOJ’s Motion to Dismiss (p.
Cl 14), a qui tarn relator (G.) is entitled to an
evidentiary hearing; and according to 31 US §
3730(d), G. is entitled to a percentage qui tarn
award for the four false claims the Defendants
made to rip-off taxpayers.
Instead of holding a hearing (in camera or
otherwise), the District Ct. immediately dismissed
G.’s complaint (p. C205; contrary to 31 US
3730(d)(2)), on a rational review basis (p. C112C117), just after G. filed a quo warranto action
against Attorney General Bill Barr for fraud and
perjury for lying under oath about enforcing the
FCA (p. C118-C136).

14

The District Ct. then refused to vacate alter,
or amend the judgement, after G. proved that
USDOJ’s motion to dismiss was fraudulent and
illegal, and in alignment with Barr’s personal
feelings about the FCA (C137-C203) rather than
the “Rule of Law”; and in alignment with
politicians laundering an additional $1-2 trillion to
PAC donors (see p. B277-B286; C204; see p. C233C236 ^|9). The 9th Circuit granted summary
affirmance to USDOJ’s fraudulent dismissal, also
refusing to allow a hearing of the appeal.
G. informed both Courts about their errors
(iinfra; see p. C205-C232), but these Courts refused
to alter any of the judgments.
b) G.’s right to mandamus relief is clear
and indisputable.
1) The District Ct. refused to allow an
evidentiary hearing, though fraud and
racketeering was plead and proven
across four major separate
construction projects, creating a due
process violation (see p. C205-207,
C212-C214, and C220).

't.

•' r

This Court’s standing case law, indicating
when an evidentiary hearing should be allowed,
and when the refusal of one denies due process, is
given in Goldberg, Commissioner of Social Services
of the City of New York v. Kelley et al. 397 US 254
(1970):

15

£

“The extent to which procedural due process
must be afforded the recipient is influenced
by the extent to which he may be ‘condemned
to suffer grievous loss’, and depends upon
whether the recipient’s interest in avoiding
that loss outweighs the governmental
interest in summary
adjudication... consideration of what
procedures due process may require under
any given set of circumstances must begin
with a determination of the precise nature of
the government function involved as well as
the private interest that has been affected by
governmental action.” Id. at p. 262.
Here, G. has experienced grievous loss and
by law, G. is entitled to substantial benefits. G.
lost not only his career practicing engineering with
WSDOT (p. C66-C74), his home, and incurred
psychological damages (p. C75) from the
Defendants’ fraud and legal abuse, but G. also lost
his qui tarn bounty under the FCA, due to
additional prosecutorial fraud committed by
USDOJ (estimated at $1 billion). Whereas, the
Governments’ interest in summary adjudication is
the unconstitutional and illegal laundering of $70
billion via SB 5987; plus an additional $1-2 trillion
(p. B277-B286; C204; C233-C236 19); and the
denial of due process through legal subversion.
According to Goldberg:
“the fundamental requisite of due process of
law is the opportunity to be heard.” Id. at p.
267.
16

Here, G. has repeatedly been denied the
opportunity to be heard by the District Ct. (see p.
C205) and 9th Circuit. When one closely examines
the judicial orders, it becomes apparent that the
judiciary is participating in the “cover-up”, as only
the 9th Circuit’s order is published. This order (see
p. A12-A13) states that: “the questions raised in
this appeal [ie., fraud and perjury by USDOJ and
US Attorney General Bill Barr, the illegal
laundering of $70 billion by WA State politicians,
and the illegal laundering of $1-2 trillion more via
a federal gas tax (see p. C204)] are so insubstantial
as not to require further argument.”
“Where governmental action seriously
injures an individual, and the
reasonableness of the action depends on fact
findings, the evidence used to prove the
Government’s case must be disclosed to the
individual so that he has an opportunity to
show that it is untrue. While this is
important in the case of documentary
evidence, it is even more important where
the evidence consists of the testimony of
individuals... who, in fact, might be
perjurers or persons motivated by malice,
vindictiveness, intolerance, prejudice, or
jealousy.” Id. at p. 270.
Here, G. has been severely injured by improper
government action. G. has had real property taken
from him (his career at WSDOT) because of
contract fraud (p. C66-C74). G. has suffered
17

*

psychological damages (p. C75) because of contract
fraud. G. has lost his home because of contract
fraud. G. has also proven the Government’s action
was motivated by perjurers, malice, vindictiveness,
intolerance, and prejudice, but the District Ct.
refuses to allow an evidentiary hearing; and the 9th
Circuit grants summary affirmance to the refusal.
USDOJ’s “frivolous” motion even states that G. is
entitled to a hearing (p. Cl 14). The only logical
conclusion that one can possibly draw from this
information is that these things are occurring so
that politicians and lawyers can continue
fraudulently laundering tax money to PAC donors
(p. C101-C111, C204); and the Courts are operating
politically rather than by “Rule of Law,” contrary to
the “ministerial duty” to which they are assigned.
2) G. has satisfied the burden proving the
new legislative act (SB 5987) is illegal,
but USDOJ refuses to make the
Defendants respond, and instead
fraudulently moves to dismiss
Relator’s complaint (see p. C206, C209C211, and C222).
According to this Court’s standing case-law,
when one alleges a due process violation (1st, 5th, or
14th Arndts.) connected with new legislation, the
individual must prove the new legislation is illegal
or unconstitutional:
“legislative Acts... come to the Court with a
presumption of constitutionality... the
burden is on one complaining of a due
18

process violation to establish that the
legislature has acted in an arbitrary and
irrational way.” Usery v. Turner Elkhorn
Mining Co., 428 US 1, 15 (1976).
Here, G. has shown repeatedly that the legislative
act (the enactment of new taxes via SB 5987)
involves abuse of police power (the Courts,
petitioner’s former attorneyz, and the police force
itself (p. C36-C45)), for the common illegal purpose
of laundering tax money to a narrow class of PAC
donors (see p. C77-100), which the public later
voted overwhelmingly to reject by advisory vote (p.
C101-C111).
“The presumption of constitutionality and the
approval given ‘rational’ classifications in
other types of enactments are based on an
assumption that the institutions of state
government are structured so as to represent
fairly all the people.” Kramer v. Union Free
School Dist. No. 15. 395 US 621, 639 (1969).
Here, that is not so, as the institutions of state
Government are clearly designed to protect the
Defendants.
As explained by this Court in U.S. v.
Carolene Products Co., 304 U.S. 144 (1938):
“a statute would deny due process which
precluded the disproof in judicial proceedings
of all facts which would show or tend to show
that a statute depriving the suitor of life,

19

liberty, or property had a rational basis.” Id.
at p. 152.
Here, USDOJ’s fraudulent motion to dismiss
petitioner’s complaint on a rational basis (p. Cl 15C116) via the FCA precludes G. from proving loss of
liberty, property, and psychological damages due to
contract fraud; all so that USDOJ, Democrats, and
Republicans can launder an additional $1-2 trillion
in tax money to PAC donors (see p. B277-B286;
C204), after already illegally laundering $70 billion
via SB 5987 by abusing the police state.
3) Despite the fact that G. has proven the
new associated legislation (SB 5987) is
illegal, arbitrary, and capricious under
the 1st, 5th, and 14th Arndts., the burden
was never on Relator, the burden was
on the Defendants to prove the
necessity and reasonableness of their
new legislation, G. ’s settlement
amount, and how they went about
obtaining it (using strict scrutiny; not
rational basis review; see p. C208,
C212, C215-C219, C222-C223).
According to this Court’s standing case law,
when the Contract Clause is invoked:
“As with laws impairing the obligations of
private contracts, an impairment may be
constitutional if it reasonable and necessary
to serve an important public purpose. In
applying this standard, however, complete
20

deference to a legislative assessment of
reasonableness and necessity is not
appropriate because the State’s self-interest
is at stake. A governmental entity can
always find a use for extra money,” United
States Trust Co. of NY v. New Jersey, 431 US
1, 25-26 (1977);
and,
“power has limits when its exercise effects
substantial modifications of private
contracts... [legislation adjusting the rights
and responsibilities of contracting parties
must be upon reasonable conditions and of a
character appropriate to the public purpose
justifying its adoption. Evaluating with
particular scrutiny (emphasis added) a
modification of a contract to which the State
itself was a party... violated the Contract
Clause because the legislation was neither
necessary nor reasonable (emphasis
added).” Allied Structural Steel Co. v.
Spannaus, 438 US 234, 244 (1979).
Here, power has no limits, as the Government has
defrauded G. from the beginning (using OSHA
agent Patty Brown, the police force, and G.’s
attorneyz against him). Further, USDOJ has been
allowed to commit additional prosecutorial fraud
and perjury without penalty. Further, G.’s claim to
fraud in contract have been unlawfully terminated
on an incorrect rational review basis, without the
Defendants having to prove the necessity and
21

i' .

••j ■

' *

reasonableness of the frauds they committed to
obtain G.’s fraudulent contracts associated with the
new legislation, as well as the reasonableness of
G.’s fraudulent settlement amount (see p. C57C65). As G. has plead and proven three other false
claims in addition to the contract fraud false claim,
the Defendants are unable to do this.
G. sued the defendants for contract fraud
(see p. B2; see p. B193-B196, B198-214; B216-B222,
B224-B233), and creating two fraud contract
settlements (the TRO and OSHA settlement “false
claims”) to defraud the OSHA whistleblower
program (p. B237-B240). G. also sued for three
other entirely separate violations of the FCA (see p.
B235-B245). When one combines the three other
false claims with G.’s contract fraud false claim, a
“pattern” is formed, demonstrating “continuity of
racketeering activity, or its threat, simpliciter.”
H.J. INC v. Northwestern Bell, L Ed. 2d 195', 209.
Here, rather than addressing the pattern of
recurrent organized crime, the Government freely
violates the Contract Clause (granting nobility
status to the Defendants), while denying G. an
evidentiary hearing for contract fraud, and
dismissing G.’s claim on an incorrect rational
review basis. Therefore, the FCA is
unconstitutional (see p. C219).
This Court has said that:
“The Constitution of the United States
declares that no state shall pass any ‘law
impairing the obligation of contracts.’
22

These propositions may be considered
consequent axioms in our jurisprudence:
The laws which exist at the time and place of
the making of a contract, and where it is to
be performed, enter into and form a part of
it. This embraces alike those which affect its
validity, construction, discharge, and
enforcement;
Nothing is more material to the obligation of
a contract than the means of its enforcement.
The ideas of validity and remedy are
inseparable, and both are parts of the
obligation which is guaranteed against
impairment;
The obligation of a contract ‘is the law which
binds the parties to perform their
agreement,’
Any impairment of the obligation of a
contract - the degree of impairment is
immaterial - is within the prohibition of the
Constitution;
The States may change the remedy, provided
no substantial rights secured by the contract
is impaired. Whenever such a result is
produced by the act in question, to that
extent it is void.” Walker v. Whitehead, 83
US 314, 317-318 (1873).
Here, there is no obligation, no enforcement,
and no remedy. G. has had substantial rights
impaired and invaded, but G. is unable to sue for
23

£
rA

fraud in contract, as the Defendants are above the
law. G. has been denied a heading by the District
Ct. and 9th Circuit; and threatened with sanctions
(see p. A10-A11) for seeking one. Further, G. has
had the 9th Circuit label the “questions raised in
this appeal... so insubstantial as not to require
further argument” (see p. A12-A13), and been
denied rehearing or rehearing en banc, after
proving more fraud against the Government for the
phony CIA whistleblower impeachment hearings
(see p. A14-A15; C223-C224).
As has been indicated (supra), the
Democratic and Republican party are required to
prove the necessity and reasonableness of their new
legislation under strict scrutiny. They are unable
to do so, as G. has also already plead and proven
the passage of a new “law”(SB 6617), designed to
conceal records (see p. B168-B187; B189-B191); in
addition to the three other false claims; in addition
to the ongoing obstruction of.justice by the
Government.
G. has also shown that the law (SB 5987; p.
C76) is narrowly tailored to benefit a specific class
of PAC donors (p. C77-C111); in violation of public
policy to the exclusion of fair contractual dealings;
as well as abuse of power by the police state.
Therefore, the associated:
“law can hardly be characterized... as one
enacted to protect a broad societal interest
rather than a narrow class.” Allied
Structural Steel Co. v. Spannaus, 438 US
234, 248-249. *
24

II.

This Court should issue a writ of
prohibition against the District Ct. for
issuing political decisions contrary to
law.
According to 55 C.J.S. Mandamus § 4 (2009):
“Mandamus and prohibition are related
remedies. Prohibition is the converse of
mandamus in that prohibition is employed to
bar a court from exceeding its authorized
powers, and mandamus is used to compel a
court to do something that it is required to
do.
The extraordinary remedies of both
prohibition and mandamus lie only if there is
a clear legal right to relief, and in the case of
prohibition only when a court acts or
threatens to act without jurisdiction in a
matter over which it has no power over the
subject matter or where it exceeds its
authorized powers in a proceeding over
which it has jurisdiction.”

Here, G. has demonstrated his clear right to
legal relief. Both the District Ct. and the 9th
Circuit have exceeded their authorized powers (see
p. C205), and unconstitutionally dismissed G.’s
complaint on an incorrect rational review legal
basis, without the Defendants having to prove the
legitimacy of their new legislation. G. has also
been threatened by the District Ct. with sanctions
(see p. All) for the fraud and perjury committed by
25

the executive branch. Therefore, the District Ct.
has satisfied the elements of extortion by a public
officer (18 US § 872), as a dismissal of G.’s
complaint allows the Defendants to continue
fraudulently laundering an additional $1-2 trillion
(see p. B277-B286; C204), after already
fraudulently laundering $70 billion, while
unconstitutionally denying relator a hearing or any
other relief for contract fraud and the Defendants’
multiple FCA violations.
“[Circumstantial evidence of intent
including the historical background of the
decision and statements by decisionmakers,
may be considered in evaluating whether a
governmental action was motivated by a
discriminatory purpose.” Washington u.
Trump, 847 F. 3d 1151, 1168 (9th CIR.
(2017)); citing Village of Arlington Heights v.
Metro. Housing Dev. Corp., 429 US 252, 26668.
Here, G. has been discriminated against, and been
denied his right to a lawful redress of grievances,
and also been threatened with sanctions for
additional crimes committed against him by
USDOJ, though G. is entitled to quo warranto and
seizure of USDOJ by law.
“Any unjustified discrimination in
determining who may participate in political
affairs or in the selection of political officials
undermines the legitimacy of representative
government.” Kramer v. Union School
District, 395 US 621, 626.
26

Here, G. has been subject to unjust discrimination
by the District Ct. (and also the state courts
(supra)) and obstructed by USDOJ so that the
Defendants can launder tax money with impunity.
The additional obstruction by the District Ct. and
9th Circuit prevents G. from obtaining the legally
owed campaign funding for his 2020 presidential
campaign. Therefore, G. has satisfied the requisite
conditions for a writ of prohibition to issue.
III.

G. is entitled to quo warranto,
mandamus, and seizure of USDOJ to
prosecute the remainder of his false
claims, as G. has proven Bill Barr lied
under oath about the FCA during his
confirmation hearing.2

•

According to 55 C.J.S. Mandamus § 41 (citing US
ex rel. Coleman v. Cox, 47 F 2d 998 (C.C.A. 5th CIR.
1931):
“there are three requisites to mandamus: (1)
a legal duty to perform a nondiscretionary
■

\

>•

V-:

2 G.’s quo warranto claim has now been obstructed for over a
year by the lower courts. Currently, House Judiciary
Committee memberz Jerry Nadler and Steve Cohen (D) have
introduced a resolution to impeach US Attorney General Bill
Barr, to “moot” G.’s quo warranto appeal to this Court, so that
“Democrats” and Republicans can corruptly maintain control
of this office. The impeachment proposal rings hollow, as Barr
previously explained (under oath) how he would handle G.’s
complaint based on “cooperative and productive relationships
with all the member(z)” to “work with them on projects
they’re interested in” (p. C131-C132): •
27

■l

i ■

act; (2) a demand for performance of the act;
and (3) a refusal to perform...
...Before mandamus will issue to a court, it
must be made to appear that the relator has
demanded action and that the court has
refused to perform the act or duty sought to
be enforced.”
Here, G. has submitted a demand (quo warranto;
see p. C118-C136), in which, G. has proven perjury
against US Attorney General Barr, who lied under
oath about enforcing the FCA and other laws in
good faith during his confirmation hearing (see p.
C122; C126-129).
Rather than prosecute the charges (the Ct.’s
ministerial duty), the District Ct. “mooted” the quo
warranto action (p. A6-A7), and dismissed the
complaint (p. A8-A9), then threatened G. with
sanctions (p. A10-A11). And, the 9th Circuit
covered up the abuse of discretion by the District
Ct. (p. A12-A13) by granting summary affirmance
to the illegal dismissal of the complaint; as well as
the additional proven charges of fraud, perjury, and
conspiracy against USDOJ; so that politicians could
launder an additional $1-2 trillion (see p. B277B286; C204).
The duty of the District Ct. and 9th Circuit to
prosecute the quo warranto charges was
nondiscretionary (see p. C209), and G. provided
sufficient evidence to convict by introduction of
Barr’s position paper on the subject (p. C137-C203),
highlighting Barr’s hatred for qui tarn. G. put this
28

information, and the motive for the crime (p. C204)
before the 9th Circuit, using that Court’s own case
law (see p. C225-C230):
“Direct and positive evidence by testimony of
the falsity of a statement of a material
matter, willfully made under oath, supported
by valid circumstantial evidence, is sufficient
to convict.” Vuckson u. United States, 354 F.
2d 918, 920 (9th CIR. (1966)).
G. also demonstrated the materiality of Barr’s
crime; as the fraudulent Motion to Dismiss G.’s
complaint denied G. any relief for the Defendants’
false claims.
And, if it wasn’t enough for the 9th Circuit to
prosecute the proven charges by its own case law,
G. also provided a second witness in Nancy Pelosi,
who stated publicly that Barr lied under oath
during the confirmation hearing (see p. C233-C236

119).
G. has also shown that there is no other
avenue to obtain the relief he desires, other than
for this Court to award quo warranto, as
“Democrats” and Republicans hold a Sherman
monopoly on the US Attorneyz office, as well as the
Courts. This was aptly demonstrated when G. filed
a separate quo warranto action / motion to
intervene in the Michael Flynn case in the DC
District Ct. (petition not included for brevity).
Flynn was National Security Adviser for Donald
Trump, and plead guilty to fraud under 18 US §
1001. After Flynn admitted to the charges, Bill
29

. ?

V- V * **..

Barr (through Tim Shea) moved to dismiss, and
claimed the fraud was immaterial. And, though G.
filed his motion by mail on 5/19/20 (received by the
DC District Court & USDOJ on 5/21/20; see p.
C237-C239), the DC Circuit Appellate Ct. then
immediately ordered the DC District Ct. to show
cause why the fraud charges shouldn’t be
dismissed, just after G.’s quo warranto petition was
received by the DC District Ct. (p. C240); and the
DC District Ct. refused to place G.’s quo warranto
petition on the docket. On 5/22/20, FBI Director
Chris Wray opened an “investigation” into the
case.3 And, on 6/10/20, House Judiciary Chair
Jerry Nadler filed an amicus brief into this very
case,4 containing many of the arguments G. had
already made in his quo warranto petition (that
was suppressed from the docket by the district
judge).
According to the established case law for quo
warranto:
“The action may be brought by the Attorney
General ‘or on the relation of a third
person (emphasis added).’ The
circumstances which entitled a third person
to the writ are explicitly set out. If the
3 https://www.foxnews.com/politics/fbi-director-wrav-opensinternal-investigation-into-how-bureau-handled-michaelflvnn-case
https://nadler.house.gov/news/documentslngle.aspx7Documen
tID=394322
30

Attorney General and the District Attorney
refuse to act on the request of the ‘person
interested’ the court may issue the writ on
such person’s verified petition if the reasons
set forth in said petition are sufficient in
law.” United States ex rel. Noel v. Carmody,
148 F. 2d 684, 685 (US App. DC (1945)).
This relation of the third person (the Relator), and
his standing, is defined as:
“affect(ing) any property right of the relator
the facts stated in the petition would have
required a hearing and a decision whether
the election was valid.” Id. at p. 686.
According to the Washington State Supreme Ct.:
“Under... RCW 7.56.020... when any person
unlawfully holds any office... an information
may be filed against him by the prosecuting
attorney, or by any other person on his own
relation, whenever he claims an interest in
the office, franchise, or corporation which is
the subject of the information.” State u.
Horan, 22 Wash. 197, 197-198.
According to American Jurisprudence:
“Where a quo warranto proceeding is
brought to try title to a public office, the
burden rests on the defendant or
respondent, as asainst the state at least,
to show a risht to the office from which
he or she is sought to be ousted (emphasis
added). Moreover, since the object of such
31

proceedings is to test the actual right of the
respondent to the office, and not merely a
use under color of right, it is incumbent upon
the respondent to show a good legal title,
that is, the defendant must show a right de
jure and not merely de facto. Thus, a
defendant who has been nominated.
elected, and sworn into office is not
entitled to a favorable presumption, in a
quo warranto proceeding testins his or
her right to hold that position (emphasis
added).” 65 Am. Jur. 2d, Quo Warranto, §
103 (2011);
and:
“The public interest demands that
controversies respecting title to public
office be adjudicated on the merits
(emphasis added; citing State ex inf. Crow v.
Armour Packing Co., 73 S.W. 645 (1903)).”
65 Am. Jur. 2d, Quo Warranto, §112 (2011).
Yet, despite these things, the 9th Circuit and
District Ct. (as well as the DC Courts) refuse to
allow a hearing, refuse to make the public officer
(Bill Barr) respond to the proven charges (the
Court’s ministerial duty), and unlawfully deny quo
warranto relief to Relator, because G. is entitled to
seizure of USDOJ to prosecute ALL of the false
claims. Therefore, this Court must grant quo
warranto and mandamus relief against USDOJ and
the 9th Circuit here as well.

32

IV.

Relator has plead and proven a pattern
of racketeering activity by the
“Democratic” Party, the Republican
Party, and USDOJ coincident with the
Contract Fraud false claim. The pattern
of labor racketeering activity extends
across four major construction projects
(false claims), highlighting criminal acts
with the “same or similar purposes,
results, participants, victims, methods
of commission, which are interrelated
by distinguishing characteristics and
are not isolated events.” H.J. INC v.
Northwestern Bell, 106 L. Ed. 2d 195,
216.

In addition to suing the Democratic Party,
the Republican Party, and G.’s former attorneyz for
fraudulently destroying his person and property
under the FCA and 2nd Restatement of Contracts, G.
has sued the Defendants under the State Leading
Organized Crime Statute (RCW 9A.82; see p. B2,
B254-B255); because a pattern of racketeering
activity extends across four separate major
construction projects (p. B235-B244)), and “such
acts have the same or similar purposes, results,
participants, victims, or methods of commission, or
otherwise are interrelated by distinguishing
characteristics and are not isolated events.” H.J.
INC v. Northwestern Bell, 106 L. Ed. 2d 195, 200.
And, because G. has established a pattern of
racketeering, G. is entitled to an immediate
payment of $250,000 (see RCW 9A.82.100(l)(d)).
33

This payment has now been illegally withheld from
G. for over 1.5 years.
This Court has stated, that in order to prove a
pattern of racketeering activity:
“a plaintiff or prosecutor must show that the
predicate acts of racketeering activity are
related and that they amount to or pose a
threat of continued criminal activity.” H.J.
INC v. Northwestern Bell, 106 L. Ed. 2d 195,
197.
G. has done this, as he has plead and proven quid
pro quo benefits (SB 5987; see p. C76, C101-C111)
in exchange for political campaign donations (see p.
C77-C100). G. has also shown that the attorney
that settled his OSHA harassment complaint
served as general counsel for AGC (see p. B261B264; B277-B286), though he failed to share any of
this information with G. Instead, Delue forced G.
into a fraudulent settlement contract agreement
(see generally p. B45-B75), after baiting G. into a
fraudulent contingency fee contract agreement (p.
C52-C56), in which he had no intention of
performing due to his interest in passing SB 5987
for AGC (see p. B261-B264). It is unlikely that
politicians would have tried to pass SB 5987 if G.’s
information about the Skagit R. 1-5 bridge would
have been publicly known.
Organized crime is defined as:
“‘the unlawful activities of the members of a
highly organized, disciplined association
34

engaged in supplying illegal goods and
services, including but not limited to... labor
racketeering, and other unlawful activities.”
H.J. INC v. Northwestern Bell, 106 L. Ed. 2d
195, 211.
This Court has stated that continuity of criminal
conduct can be shown by:
“(1) proving a series of related predicate acts
extending over a substantial period of time,
(2) proving related predicate acts that
involve a distinct threat of long-term
racketeering activity... (3) showing that the
predicate acts or offenses are part of an
ongoing entity’s regular way of doing
business... (4) showing that the predicate
acts are a regular way of conducting the
defendant’s ongoing legitimate business or
conducting or participating in an ongoing
and legitimate RICO ‘enterprise.’” Id. at p.
200.
and that:
“The dismissal of a complaint may be
affirmed only if it is clear that no relief could
be granted under any set of facts that could
be proved consistent with the allegations.”
Id. at p. 201.
Here, however, the District Ct. dismissed Relator’s
complaint without a hearing (while threatening G.
with sanctions), and the 9th Circuit granted
summary affirmance to the dismissal, despite the
35

fact that Relator has plead and proven an ongoing
pattern of illegal racketeering activity over a
substantial time period, including four separate
violations of the FCA, fraud and perjury by
USDOJ, entitlement to relief under the state
leading organized crime statute, entitlement to
relief by quo warranto, entitlement to relief under
the 2nd Restatement of Contracts, and entitlement
to relief under the FCA.
V.

Sanctions

The District Ct. and the 9th Circuit Court
have abandoned this Court’s established fraud
standard: Hazel-Atlas Glass Co. v. Hartford Empire Co., 322 US 238 (1944):
“No fraud is more odious than an attempt to
subvert the administration of justice.” Id. at
251.
and replaced it with this one: United States v.
Sierra Pacific Industries, Inc., 862 F. 3d 1157 (9th
CIR. (2017)), allowing USDOJ to freely participate
in fraud and perjury to subvert the administration
of justice. This action has not only:
prejudiced the opposing party,’ but...
harmed the integrity of the judicial process.”
Id. at 1168.
The District Ct. and the 9th Circuit refuse to
perform their ministerial duty to sanction USDOJ
36

to curb the ongoing practice of filing fraudulent
motions.
“A district court would necessarily abuse its
discretion if it based its ruling on an
erroneous view of the law or on a clearly
erroneous assessment of the evidence.”
Cooter & Gell v. Hartmarx Corp., 496 US
384, 405 (1990).
Here, it is obvious that USDOJ filed a fraudulent
motion to subvert G.’s complaint for political
purposes, but the District Ct. pretends like it
doesn’t understand any of G.’s claims (see p. A10All), and threatens G with sanctions for USDOJ’s
fraud (see p. All). As the Government has spent
over $33 million on its “frivolous” Mueller
investigation (see p. C126-C127), yielding no
results, and committed additional fraud and
perjury to obstruct G.’s very large claim, G. chose
this amount as a reasonable sanction, and trebled
it when USDOJ refused to withdraw the offensive
and frivolous motion to dismiss (see p. C231-C232).
However, as Donald Trump states, he can do
whatever he wants (see p. C233 ^13), because of his
Art. II powers and his “total professional” AG,
including violating the Constitution and laws of the
United States, as the 9th Circuit and District Court
don’t enforce them, and refuse to sanction USDOJ
for prosecutorial fraud. Therefore, this Court must
grant mandamus relief here as well. And though
$99 million might initially seem like a large
amount, House Judiciary chair Jerry Nadler only
37

recently proposed sanctioning USDOJ $50 million5
for dismissing the Flynn case (after G.’s quo
warranto petition was suppressed from the docket
by the DC District Ct),; and this amount is less
than 10% of G.’s overall claim.

VI.

Certiorari is not the appropriate avenue
to resolve the issues raised in this case.
Though 55 C.J.S. Certiorari §11 states:
“The writ of certiorari will lie to review
determinations made without jurisdiction or
in excess of the jurisdiction conferred... Any
act that exceeds the defined power of a court
or inferior tribunal is in excess of jurisdiction
for this purpose... making an order not
supported by substantial evidence,
improperly construing the applicable law, or
failing to follow or apply the law;”

and 55 C.J.S. Certiorari § 2 states:
“the writ is reserved for extraordinary
situations, or exceptional
circumstances...only where to do otherwise
would result in substantial injustice...the
writ may be used to correct certain errors of
law or review certain matters of discretion;”
55 C.J.S. Certiorari § 9 states that:
5 https://www.reuters.com/article/us-usa-iustice-newvorkidUSKBN23S0IB
38

“certiorari is not the proper procedure for
challenging the constitutionality of a statute
or ordinance.”
Here, G. is challenging the constitutionality and
legality of the False Claims Act; as well as State
legislation SB 5987 (Connecting WA tax package);
as both are unconstitutional when examined next
to the 1st, 5th, and 14th Arndts., as well as the
Contract Clause, as has already been described
above.
CONCLUSION
Judges and members of Congress swear an
oath to defend the laws and Constitution of the
United States (Art. VI Clauses 2 & 3; 5 US § 3331;
28 US § 453). As Mr. Barr notes in his position
paper (see p. C157), this oath should confine the
officer to “the faithful execution of the laws.”
G. has proven fraud and perjury against
USDOJ; and errors of law by the 9th Circuit and
District Ct.; and G. has suffered injury in fact (see
p. Cl42) because of it.
Because of this, and because G. planned to
use the seized funds for his 2020 presidential
election, and because USDOJ (and the Courts) are
operating politically rather than by “Rule of Law”
(contrary to their mandate), and as the denial of
the writs will only result in another Attorney
General who will subvert the laws in the
Defendants’ favor, this Court should award G. writs
39

of mandamus, prohibition, and quo warranto to
confine USDOJ, the District Ct., and the 9th Circuit
Ct. to a lawful use of power.
G. has no other adequate means to obtain
the desired relief. G.’s rights to the writs are clear
and indisputable. The requested relief is
appropriate under the circumstances.
Respectfully submitted.

V/

David Golden
Pro Se Petitioner
Washington Professional Engineer
#39855
DATED this 6th day of July, 2020.
V

!

40

